OFFICE OF THE INSPECTOR GENERAL




      TACTICAL INTELLIGENCE DISSEMINATION
              SYSTEMS AND RADIOS




       Department of Defense
 Additional Copies
 To obtain additional copies of this audit report, contact the Secondary Reports
 Distribution Unit, Audit Planning and Technical Support Directorate, at
 (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932.

 Suggestions for Future Audits
 To ·suggest ideas for or to request future audits, contact the Planning and
 Coordination Branch, Audit Planning and Technical Support Directorate, at
 (703) 604-8939 (DSN 664-8939) or FAX (703) 604-8932.      Ideas and requests
 can also be mailed to:
                     Inspector General, Department of Defense
                     OAIG-AUD (ATTN: APTS Audit Suggestions)
                     400 Army Navy Drive (Room 801)
                     Arlington, Virginia 22202-2884
 Defense Hotline
 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL;
 or by writing the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
 The identity of each writer and caller is fully protected.




Acronyms
CIM                  Corporate Information Management
c31                  Command, Control, Communications, and Intelligence
TIBS                 Tactical Information Broadcast System
TRAP/TDDS            Tactical Related Applications/Tactical Related Applications Data
                       Dissemination System
TRIXS                Tactical Reconnaissance Intelligence Exchange System
                          INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-2884




                                                                     August 17, 1995

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (COMMAND,
                 CONTROL, COMMUNICATIONS, AND
                 INTELLIGENCE)


SUBJECT: Audit Report on Tactical Intelligence Dissemination Systems and Radios
         (Report No. 95-292)

        We are providing this report for review and comments. DoD Directive 7650.3
requires that all recommendations and potential monetary benefits be resolved
promptly. Because your office did not comment on a draft of this report, we request
that you provide comments on the final report by September 18, 1995. Management
comments must indicate concurrence or nonconcurrence with the finding and each
recommendation. If management concurs, comments must describe actions taken or
planned in response to agreed-upon recommendations and provide the completion dates
of the actions. State specific reasons for any nonconcurrence and propose alternative
actions, if appropriate.

       The courtesies extended to the audit staff are appreciated. If you have any
questions, please contact Mr. Harrell D. Spoons, Audit Program Director, at (703)
604-9575 (DSN 664-9575) or Mr. Wayne B. Winkler, Audit Project Manager, at (703)
604-9562 (DSN 664-9562). The distribution of this report is listed in Appendix G.
The audit team members are listed inside the back cover.


                                    ~Lt.- ..
                                       Robert J. Lieberman
                                    Assistant Inspector General
                                           for Auditing
                        Office of the Inspector General, DoD
Report No. 95-292                                                       August 17, 1995
   (Project No. 4RF-0070)

                            Tactical Intelligence Dissemination
                                   Systems and Radios

                                   Executive Summary
Introduction. The DoD Corporate Information Management (CIM) initiative provides
the methods to achieve standardization, integration, and reduction in the number of
automated information systems that DoD Components procure, modernize, and
maintain. Reducing the number of systems is accomplished by identifying and
consolidating systems that perform similar functions. The audit focused on applying
the CIM initiative to three ultrahigh frequency band radios and their associated
broadcasts that provide tactical intelligence information throughout the battlefield and
around the world. Program costs for the radios total $297.5 million for FYs 1996
through 2000.
Objectives. The objective of the audit was to determine whether the U.S. Special
Operations Command (the Command) acquisitions of intelligence systems and
applications were economical and efficient as well as compatible and interoperable with
the DoD Intelligence Information System architecture. We also determined whether
the Command-acquired intelligence systems duplicated Military Department systems.
Also, we reviewed the management controls at the Command as they related to our
audit objectives.                                                   v




Audit Results. The Command's acquisition of intelligence systems was accomplished
in accordance with DoD acquisition procedures. Further, the Command's intelligence
information systems are compatible with the DoD Intelligence Information system
architecture and were developed in compliance with the CIM initiative (see
Appendix B). However, the Army, the Navy, and the Command are developing,
procuring, and distributing three ultrahigh frequency radios with duplicate capabilities.
In addition, broadcasting formats used to send tactical data to intelligence consumers
have not been standardized. As a result of the multiple data formats and redundant
capabilities, unnecessary hardware and software may be developed and procured,
additional life-cycle costs may be incurred, information may be lost or misinterpreted,
and the goals of the CIM initiative may not be met.                  Implementing the
recommendations will eliminate duplicate capabilities and identify one radio to satisfy
user requirements, which should produce future monetary benefits (see Appendix E).

Summary of Recommendations. We recommend that the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) standardize
intelligence message broadcasting formats, establish a joint requirement for intelligence
information broadcasting, select one ultrahigh frequency radio to satisfy joint
requirements, and establish a Joint Program Management Office to manage future radio
and broadcasting requirements.
Management Comments. The Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) did not respond to a draft of this report. Therefore,
we ask that the Assistant Secretary provide comments by September 18, 1995.




                                           ii
Table of Contents

Executive Summary                                                            i

Part I - Audit Results
      Audit Background                                                      2
      Audit Objectives                                                      2
      Consolidating and Standardizing Tactical Intelligence Dissemination
      Broadcasts and Radios                                                 4

Part II - Additional Information
      Appendix A. Scope and Methodology
        Scope and Methodology                                               18
        Management Control Program                                          19
        Summary of Prior Audit                                              20
      Appendix B. Other Matters of Interest                                 21
      Appendix C. Glossary                                                  22
      Appendix D. U.S. Special Operations Command Intelligence Systems
                  Development                                               25
      Appendix E. Summary of Potential Benefits Resulting from Audit        27
      Appendix F. Organizations Visited or Contacted                        28
      Appendix G. Report Distribution                                       30
Part I - Audit Results
Audit Results




Audit Background

      In October 1989, the Deputy Secretary of Defense established the Corporate
      Information Management (CIM) initiative to provide DoD the methods for
      reengineering and restructuring its business and administrative processes. In
      1993, the CIM initiative expanded from an initial concentration on improving
      information management in certain administrative areas to all DoD functional
      areas, including command and control and intelligence. The CIM initiative
      requires designated officials to provide cross-functional standardization by
      identifying and selecting the best of existing information systems. During the
      standardization process, the DoD Components will be using migration* systems
      and legacy systems. A migration system is an existing information system or a
      planned and approved information system officially designated as the single
      system to support standard processes for a function. Systems not identified as
      migration systems are considered legacy systems. The legacy systems will be
      eliminated so that all future development resources can be applied to migration
      systems. The goals of the CIM initiative complement the goals of the
      command, control, communications, computers, and intelligence for the warrior
      architecture to get information to the warfighter in the most efficient and
      effective manner.
      The Intelligence Systems Board is responsible to evaluate, consolidate, and
      integrate the intelligence community 1 s intelligence information systems in order
      to eliminate duplication of systems and to support standard processes. The
      Military Communications-Electronics Board is responsible to provide a similar
      service for the command and control community.


Audit Objectives

      The audit objectives were to determine whether intelligence systems for the
      U.S. Special Operations Command (the Command) were acquired economically
      and efficiently and whether the Command Is intelligence architecture is
      compatible and interoperable with DoD Intelligence Information Systems. The
      audit also determined whether the Command unnecessarily duplicated Military
      Department intelligence systems. The audit evaluated management controls
      applicable to the audit objectives. The compatibility and interoperability of the



      *See Glossary in Appendix C, which describes technical terms and provides
      information on the functional groups discussed in the report.



                                          2
                                                              Audit Results




Command's intelligence systems with DoD Intelligence Information Systems are
discussed in Appendix B. See Appendix A for details on audit scope,
methodology, management controls, and prior audit coverage.




                                  3
            Consolidating and Standardizing Tactical
            Intelligence Dissemination Broadcasts
            and Radios
            The Army, the Navy, and the Command are developing, procuring, and
            operating ultrahigh frequency radios with duplicate capabilities. In
            addition, tactical data are sent to intelligence consumers on three
            broadcasting formats. Multiple development efforts for the radios
            continue because the Army, the Navy, and the Command did not
            establish a joint requirement or select one radio to meet joint
            requirements. In addition, three broadcasting formats are used because
            the Assistant Secretary of Defense (Command,                  Control,
            Communications, and Intelligence) has not implemented recent guidance
            requiring standard broadcasting formats. As a result:
                   o unnecessary hardware and software may be developed and
            procured for three radios,
                   o significant additional life-cycle costs will be incurred to
            maintain the duplicate radios,
                   o multiple broadcasting formats may impede interoperability,
                   o information may be lost or misinterpreted, and
                   o the standardization goals of the CIM initiative are not being
            met.


Tactical Intelligence Dissemination Systems and Radios

     Broadcasts of tactical intelligence provide threat information throughout the
     battlefield and around the world. The broadcasts send critical, time-sensitive
     intelligence data to the warfighters and others, such as national agencies, who
     access the information through various ultrahigh frequency radios. The Army,
     the Navy, and the Command are developing three radios operating in the
     ultrahigh frequency band to broadcast tactical data.
     Application of CIM Standardization Policy to Broadcasts of Tactical
     Intelligence. The DoD CIM standardization policy applies to both tactical
     intelligence dissemination systems and ultrahigh frequency radios. The DoD
     guidance related to both standardization and tactical intelligence dissemination
     systems follows.


                                        4
Consolidating and Standardizing Tactical Intelligence Dissemination Broadcasts
                                                                    and Radios




           o DoD Directive 4630.5, "Compatibility, Interoperability, and
   Integration of C3I [Command, Control, and Communications] Systems,"
   November 12, 1992, contains the DoD basic policy regarding compatibility,
   interoperability, and integration of command, control, communications, and
   intelligence (C3I) data, which includes command, control, and communications
   tactical data links.
           o Deputy Secretary of Defense memorandum, "Accelerated
   Implementation of Migration Systems, Data Standards, and Process
   Improvement," October 13, 1993, requires that identification of migration
   systems be completed by October 1996.          The guidance states ". . .
   implementation of standard migration systems may result in the loss of
   automated functionality by selected system users . . . . Loss of functionality
   should not be used as a reason to delay migration system selection and
   deployment . . . . " In summary, the selected migration systems may not totally
   satisfy all user needs.
          o Secretary of Defense memorandum, "Specifications and Standards-A
   New Way of Doing Business," June 29, 1994, encourages DoD to utilize
   commercial, state-of-the-art technology instead of military specifications and
   standards. The guidance also encourages program managers and acquisition
   decision makers at all levels to challenge requirements that result in unique,
   nonstandard systems.
          o Assistant Secretary of Defense (C3I) memorandum "C3I Tactical Data
   Link Policy," October 18, 1994, elaborates on the policy discussed in DoD
   Directive 4630.5. The memorandum states " ... all processed information will
   be disseminated through LINK-16 to permit standardized, interoperable, data
   link support directly to the operator on the battlefield." Tactical Data
   Information Link-J is the format used by LINK-16.
   Tactical Intelligence Broadcasting Formats. Three broadcasting systems send
   information to the Commander's Tactical Terminal, Multi-Mission Advanced
   Tactical Terminal, and the Tactical Receive Equipment systems.
           o The Tactical Reconnaissance Intelligence Exchange System (TRIXS),
   is a tactical network that can be queried by the user and disseminates near-real-
   time intelligence reports, with battle area focus, from up to five producers. The
   TRIXS does not support Tactical Data Information Link-J for message
   transmission. The TRIXS was developed to support ground situation and
   targeting requirements       and operates at the collateral secret and sensitive
   compartmented information levels. ·
           o The Tactical Information Broadcast System (TIBS) is a near-real-time
   theater network that can be queried by the user and disseminates tactical
   information generated by up to 10 producers. The TIBS operates at the
   collateral secret level and was developed to support the air defense threat
   requirements. Although TIBS uses a 70-bit Tactical Data Information Link-J
                                       5
Consolidating and Standardizing Tactical Intelligence Dissemination Broadcasts
and Radios




      fixed format for message transmission, the Joint Staff's Director for Command,
      Control, Communication, and Computer Systems (J-6), who is responsible for
      monitoring broadcasts, has not officially recognized TIBS as an approved
      format within the Tactical Data Information Link-J message catalog.
              o The Tactical Related Applications/Tactical Related Applications Data
      Dissemination System (TRAP/TDDS) provides worldwide access to selected
      nationally generated information by satellite relays. The TRAP/TDDS cannot
      be queried by the user. The TRAP/TDDS uses a 348-bit Tactical Data
      Information Exchange System fixed format (not Tactical Data Information
      Link-J) for message transmission. The TRAP/TDDS operates at the collateral
      secret level and was developed to provide national electronic intelligence to the
      tactical user.
      The figure below illustrates the three broadcast services.




                                                                      River
                                                                      Join!
                                                                      Aircraft




          TRAPffDDS




      Tactical Intelligence Broadcasts




                                           6
Consolidating and Standardizing Tactical Intelligence Dissemination Broadcasts
                                                                    and Radios




   Standardization of Broadcasting Formats. The October 31, 1994, report on
   the Intelligence Systems Board's working group study identifies problems in
   using multiple broadcast formats. For example, the study states that "when
   converting from one format to another . . . the second format may not
   accommodate a particular data element or may not preserve the resolution of the
   original. " The study also states ". . . the periodic format changes required to
   accommodate technical or operational needs have resulted in significant
   cumulative cost impacts to receiver and Tactical Data Processor developers and
   maintainers . . . . " The working group study report suggests reengineering and
   integration of the broadcasts to reduce unnecessary duplication and to use the
   ultrahigh frequency satellite communications more efficiently.
   In summary, converting the various message formats for the various users can
   lead to loss of critical information. Also, multiple formats increase the
   development and support costs for radio and tactical data processor developers.
   To comply with the Assistant Secretary of Defense (C3J) policy, a common
   broadcast format to include standard data elements should be selected. The
   identification of one format would greatly assist in standardizing broadcast
   radios (receiving and/or transmitting) and would result in life-cycle cost
   reductions.
   Radio Candidates for the Migration Process. The Assistant Secretary of
   Defense (C3J) is considering three ultrahigh frequency radios for the migration
   process: the Commanders' Tactical Terminal, the Multi-Mission Advanced
   Tactical Terminal, and the Tactical Receive Equipment. Those radios are
   capable of receiving and/or transmitting one or more of the tactical intelligence
   dissemination broadcasts. The radios provide the receive functions (the
   Commander's Tactical Terminal provides both the receive and transmit
   functions), processing functions, and output functions necessary to deliver
   critical, time-sensitive information to tactical commanders and intelligence users
   at all echelons. The radios can be used in aircraft, surface, subsurface, and
   fixed or mobile ground platforms and vehicles. Senior officials of the Office of
   the Assistant Secretary of Defense (C3J) and the Army, Navy, and Air Force
   recognized duplication of radio capabilities as early as 1991.
   Initial Detection of Duplicate Radio Capabilities. In January 1991, the
   Assistant Secretary of Defense (C3J) sponsored a Tactical Intelligence
   Dissemination Tri-Service General Officer's Steering Committee (Steering
   Committee) to further address the proliferation of efforts to develop military
   radios to handle tactical intelligence dissemination networks and broadcasts.
   The mission of the Steering Committee is to increase standardization, and multi-
   Service interoperability and commonality of radios. The Assistant Secretary of
   Defense (C3J) assigned the responsibility for the Steering Committee to the
   Army. The Army-chaired Steering Committee established two joint panels: the
   Joint Intelligence Dissemination Requirements Panel and the Joint Intelligence



                                       7
Consolidating and Standardizing Tactical Intelligence Dissemination Broadcasts
and Radios




      Dissemination Architecture Panel. Those panels were to develop a requirements
      baseline to provide near-real-time dissemination of time-sensitive intelligence to
      the tactical commander and to develop an architectural framework for a joint
      development effort that assured system interoperability among the Military
      Departments.
      Separate Development Efforts Continue. During February 1992, the Joint
      Intelligence Dissemination Requirements Panel and the Joint Intelligence
      Dissemination Architecture Panel recommended that requirements identified by
      the Military Departments be formalized in a joint mission needs statement and
      that an update of the Joint Statement of Operational Requirement be developed
      for near-real-time tactical intelligence dissemination to support the tactical
      commanders' functional needs with correlated intelligence and access to
      secondary imagery dissemination. The panels' recommendations acknowledged
      a need for a three-channel Commander's Tactical Terminal system and
      identified the Commander's Tactical Terminal system as the near-term solution
      to meet operational requirements for the Military Departments. The Navy
      Engineering Design Model would also continue to be funded until a suitable
      replacement system was available. The panels also recommended establishing a
      joint effort to develop a system that would meet the Military Departments' long-
      term needs. Although the Military Departments were aware of the similar
      capabilities of the three radios, they did not initiate action to choose one radio to
      satisfy the joint requirements. Accordingly, the Army, the Navy, and the
      Command continued development efforts to satisfy their respective
      requirements.
      Subsequent Detection of Duplication. A working group of the Intelligence
      Systems Board issued a report in October 1994 that identified the unnecessary,
      duplicate capabilities of the Commander's Tactical Terminal, Multi-Mission
      Advanced Tactical Terminal, and Tactical Receive Equipment. To reduce the
      duplication, the working group recommends establishing a joint program office
      responsible for gradually consolidating the three radios into a joint tactical
      terminal by the end of 1999. Because the recommended gradual consolidation
      did not provide specific details on how and when to accomplish consolidation,
      development of the three radios continued.


Commanders' Tactical Terminal

      The Commander's Tactical Terminal originated from a joint Army and Air
      Force operational requirement for a secure, jam-resistant, time-sensitive
      information dissemination radio. The radio is required to transmit and receive
      Sensitive Compartmented Information and collateral data throughout the
      battlefield. The Army's Training and Doctrine Command and the Air Force's


                                            8
  Consolidating and Standardizing Tactical Intelligence Dissemination Broadcasts
                                                                     and Radios




     Air Combat Command approved requirements for the Commander's Tactical
     Terminal in 1983, and the Air Force, as lead agency, established a development
     program. In September 1989, the Air Force transferred management of the
     Commander's Tactical Terminal program to the Army's Electronic
     Warfare/Reconnaissance, Surveillance and Target Acquisition, Program
     Executive Office for Intelligence and Electronic Warfare, Fort Monmouth, New
     Jersey.
     Commander's Tactical Terminal Capabilities. There are four models of the
     Commander's Tactical Terminal radio.
             o The one-channel model has a single, full-duplex channel for operation
     in the TRIXS network. The one-channel model is a fully tested, proven, and
     installed system that is no longer produced.
             o The two-channel, hybrid receiver model is a fully militarized two-
     channel receiver in an airborne qualified chassis. The two-channel model is a
     fully tested, proven, and installed system that is still being produced.
            o The three-channel, hybrid receiver model is a receive-only model and
     is based on the proven technology of the two-channel hybrid receiver model.
     This three-channel receiver model is expected to be available October 1995.
            o The three-channel, hybrid model is a radio with capabilities to receive
     and transmit. Two pieces of equipment comprise this model. The three-
     channel, hybrid model is based on the proven technology of the two-channel,
     hybrid receiver model and is to be available in October 1995.


Multi-Mission Advanced Tactical Terminal

     The Multi-Mission Advanced Tactical Terminal radio originated from a
     classified naval research project.      The Multi-Mission Advanced Tactical
     Terminal program is jointly managed by the Command and the Assistant
     Secretary of the Air Force (Acquisition). The Air Force Electronic Systems
     Center is the production program manager. The Operational Support Office, a
     component of the Defense Systems Program Office, will manage the planned
     development of additional capabilities.
     Multi-Mission Advanced Tactical Terminal Capabilities. The initial Multi-
     Mission Advanced Tactical Terminal units will have a two-channel receive
     capability for TRAP/TDDS broadcasts, and TRAP-only embedded correlation.
     However, the Multi-Mission Advanced Tactical Terminal has the growth
     potential to satisfy the current four-channel receive requirement.


                                        9
Consolidating and Standardizing Tactical Intelligence Dissemination Broadcasts
and Radios




      System-Unique Architecture. The Multi-Mission Advanced Tactical Terminal
      is constructed using unique module architecture. This Multi-Mission Advanced
      Tactical Terminal architecture is not based on commercial industry-wide
      standards; therefore, existing commercial technology and off-the-shelf products
      cannot be utilized.      As a result, significant costs may be incurred to
      accommodate the evolutionary growth and expansion of the Multi-Mission
      Advanced Tactical Terminal, because the system may require radical
      modification and redesign through the growth stage.


Tactical Receive Equipment

      The production version of the Tactical Receive Equipment system is separate
      from the Tactical Receive Equipment engineering development model, which is
      already fully developed and supported by the Navy through the year 2010. Our
      audit focused only on the production Tactical Receive Equipment program.
      The Navy's Space and Naval Warfare Systems Command manages the
      production Tactical Receive Equipment program. Development of the Tactical
      Receive Equipment system achieved Milestone III (production approval
      decision) in March 1989. The Navy awarded the base production contract
      (N00039-91-C-0214) with five options to Frequency Engineering Laboratories
      on August 9, 1991, as a firm fixed-priced contract. The Tactical Receive
      Equipment is scheduled for installation on ships, submarines, and patrol aircraft
      and at naval shore facilities. The Navy has an overall requirement for 278
      systems and contracted for 81 units at a cost of $33.5 million. As of
      December 31, 1994, about $28 million had been expended and 22 systems have
      been delivered of which 4 will be used for first-article testing.
      Tactical Receive Equipment Capabilities. The Tactical Receive Equipment is
      a two-channel radio that will receive (not transmit) TRAP/TDDS broadcasts.
      The radio design for the Tactical Receive Equipment utilizes a standard
      commercial circuitry-type architecture that promotes use of existing commercial
      technology and off-the-shelf products. The Tactical Receiver Equipment radio
      is expected to have the ability to combine and amplify the broadcast reception
      received by four antennas (quad-diversity) and is expected to have the growth
      potential to expand to four channels.
      Tactical Receive Equipment Program Development. The Tactical Receive
      Equipment program has experienced significant system performance problems,
      material cost growth, schedule delays, and financial problems with the prime
      contractor. In addition, system requirements, such as the high-speed fleet




                                         10
  Consolidating and Standardizing Tactical Intelligence Dissemination Broadcasts
                                                                      and Radios




     broadcast, have been dropped, and Tactical Receive Equipment radios have
     been accepted by the Government before first-article testing.     As of
     December 31, 1994, the Space and Naval Warfare Systems Command (Tactical
     Receive Equipment program office) was correcting the cost, schedule, and
     performance problems.


Comparison of Radio Features

     The three radios, the Multi-Mission Advanced Tactical Terminal, Commander's
     Tactical Terminal, and Tactical Receive Equipment are being developed with
     similar capabilities. For example, those radios have planned capabilities that
     include simultaneous receipt, decryption, and processing of information
     provided by tactical intelligence dissemination broadcasts. The radios differ in
     the following areas.
             o The various sponsoring organizations use different radio channels and
     tactical intelligence dissemination broadcasts.
            o The Multi-Mission Advanced Tactical Terminal and Commander's
     Tactical Terminal have an internal communication security capability, whereas
     the Tactical Receive Equipment has an external communication security device.
             o The Tactical Receive Terminal has a unique requirement to combine
     and amplify the broadcast reception received by four ship antennas (quad-
     diversity). The Commander's Tactical Terminal contract has quad-diversity as
     an option that may be exercised when funded.
            o The Commander's Tactical Terminal is the only radio that provides
     both receipt and transmit capabilities.
            o The Commander's Tactical Terminal is the only radio that provides a
     secondary imagery dissemination capability.
     Although differences exist among the three radios, advances in technology
     permit consolidation of all the capabilities into one system to satisfy joint
     requirements.
     Standardization of Radios.         Specific requirements may require unique
     hardware configurations. A summary of existing system capabilities and
     capabilities under development follows.




                                        11
Consolidating and Standardizing Tactical Intelligence Dissemination Broadcasts
and Radios




                          Ultrahigh Frequency Radio Capabilities
                                                      System
       Capabilities               Commander's     Multi-Advanced       Tactical
                                    Tactical         Tactical          Receive
                                    Terminal        Terminal          Equipment
      TRAP/TDDS:
        Receive Only                    X                 X                X
      TIBS
        Receive Only                    X                 X
         Transmit                       X

      TRIXS
        Receive Only                    X
        Transmit                        X
      Embedded Correlation                                X
      Quad-Diversity
        (On board ship)                 *                                   X

      Secondary Imagery
        Dissemination                   X

      Open System Architecture          X                                   X

      *The Commander's Tactical Terminal contract contains an option to add the
      quad-diversity capability at an estimated one-time cost of $800,000.

      Summary of Total Estimated Radio Costs. Total estimated program costs for
      the three ultrahigh frequency radios for FY 1996 through FY 2000 is $297.5
      million. During that period, the following amounts have been budgeted for the
      radios:
             o $126.8 million for the Multi-Mission Advanced Tactical Terminal,

             o $82.3 million for the Commander's Tactical Terminal, and
             o $88.4 million for the Tactical Receive Equipment.




                                        12
  Consolidating and Standardizing Tactical Intelligence Dissemination Broadcasts
                                                                      and Radios




Benefits in Identifying One Radio to Meet Requirements

     The following four benefits would result from consolidating development efforts
     for the three radios: compliance with the CIM initiative, economies of scale,
     elimination of duplicate life-cycle and program management costs, and lower
     risk.
            o Consolidating the three radio development efforts and selecting a
     migration system will comply with the Deputy Secretary of Defense guidance
     issued on October 13, 1993, which requires accelerating the implementation of
     migration systems.
            o Economies of scale will result from combining requirements for three
     radio models and satisfying the requirement with one selected migration system
     (see Appendix E). For example, doubling the ordered quantity of the
     Commander's Tactical Terminals could decrease unit cost by 10 to 13 percent.
             o A significant reduction in life-cycle costs will result from
     consolidating the Commander's Tactical Terminal, Multi-Mission Advanced
     Tactical Terminal, and Tactical Receive Equipment programs. By consolidating
     efforts into one system, about 20 percent of total program costs could be put to
     better use.
             o Development risks will be reduced because the proven technology
     from each system can be utilized. Also, future planned improvements and
     enhancements can be funded for one radio instead of three. In addition, the
     potential benefits from an open architecture using commercial technology and
     off-the-shelf equipment can be optimized.
     Need for Centralized Responsibility for Meeting Intelligence Broadcast
     Requirements. As previously discussed, the multiple data broadcast formats do
     not conform to the DoD policy on standardization. Also, no central acquisition
     focal point has been designated to have authority over radio development. As a
     result, unnecessary costs are incurred to develop and maintain three similar
     ultrahigh frequency radios and their electronic outputs to tactical data
     processors. The lack of a focal point responsible for establishing joint
     requirements has resulted in multiple radios and associated intelligence data
     broadcasts. In addition, although the Military Departments identified common
     requirements among the users of tactical radios in 1991, three broadcast receiver
     systems with overlapping capabilities are still being developed.
     Joint Program Office. A joint program office is essential for program
     migration. One office should be responsible for satisfying joint requirements
     and should provide oversight of the expenditure of funds. In addition to the



                                        13
Consolidating and Standardizing Tactical Intelligence Dissemination Broadcasts
and Radios




      monetary benefits that will result from migrating to one program, the DoD
      goals of eliminatinf. redundant systems, achieving commonality and
      interoperability for C I systems, and optimizing use of commercial technology
      and commercial off-the-shelf products will be achieved.


Summary

      The DoD CIM initiative entails the consolidation and standardization of
      information systems to include data elements and data links. The DoD guidance
      implementing the CIM initiative recognizes that consolidation of systems may
      result in some loss of functionality and states that such loss should not be used
      as a reason to delay identifying migration systems. The guidance also states that
      the lack of standardization is rooted in the requirements determination phase of
      the acquisition cycle. To preclude duplication of systems, the guidance
      encourages program managers and acquisition decision makers at all levels to
      challenge unique requirements for information systems.
      In our opinion, identifying one radio to satisfy joint user requirements should
      result in significant cost reductions from economies of scale and elimination of
      duplicate life-cycle costs and duplicate upgrades to multiple radios with future
      product improvements. A joint program office would help to accomplish the
      evolution of the three radios to one migration radio.


Recommendations for Corrective Action

      We recommend that the Assistant Secretary of Defense (Command, Control,
      Communications and Intelligence):
             1. Standardize the message reporting formats for the Tactical Related
      Applications/Tactical Related Applications Data Dissemination System, Tactical
      Information Broadcast System, and Tactical Reconnaissance Intelligence
      Exchange System in accordance with DoD standardization guidance prescribed
      by the Corporate Information Management initiative.
             2.    Select one radio to satisfy user requirements for intelligence
      dissemination.
             3. Develop a joint requirement for future intelligence information
      dissemination, based on intelligence requirements for the Military Departments
      and the U.S. Special Operations Command.


                                         14
  Consolidating and Standardizing Tactical Intelligence Dissemination Broadcasts
                                                                      and Radios




            4. Establish a joint program management office over intelligence
     broadcast radios and designate the lead acquisition authority for that office.



Management Comments Required

     The Assistant Secretary of Defense (Command, Control, Communications and
     Intelligence) did not respond to the draft of this report in time for comments to
     be incorporated into the final report. If comments are received, we will
     consider them as comments on the fmal report.




                                        15
Part II - Additional Information
Appendix A. Scope and Methodology

Scope and Methodology

    U.S. Special Operations Command Acquisition of Intelligence Systems. To
    assess the Command's performance in acquiring intelligence systems, we
    reviewed documents submitted for acquisition milestone reviews for 12
    intelligence systems funded under the Command's Major Force Program 11. A
    discussion of the Command's acquisition of intelligence systems and
    applications is in Appendix D. We reviewed the Command Intelligence
    Architecture Plan, and the Congressional Justification Book for all Major Force
    Program 11 funding and General Defense Intelligence Program funding
    associated with each of the 12 systems we reviewed. We interviewed the
    program manager for each of the 12 systems and reviewed system files to verify
    whether each system had a mission needs statement and an acquisition strategy.
    We reviewed the acquisition decision memorandums to verify that each system
    was approved for its appropriate acquisition milestone phase. We also verified
    that each system program manager submitted key acquisition documents to the
    acquisition decision authority before approval to enter their respective
    acquisition phase. Specifically, we verified that the following documents were
    submitted to the acquisition decision authority for each of the 12 systems:
           o   integrated program summary,
           o   acquisition program baseline,
           o   operational requirements document,
           o   test and evaluation master plan,
           o   integrated logistics support plan,
           o   cost and operational effectiveness analysis,
           o   life-cycle cost estimate,
           o   development test and evaluation report,
           o   acquisition decision memorandum, and
           o   system threat assessment.

    Identification of Tactical Intelligence Dissemination Radios. We interviewed
    officials from each of the ultrahigh frequency radio program offices and
    reviewed program documents to quantify the extent of duplication within the
    requirements for the three radios, to obtain cost and schedule estimates for each
    radio needed to satisfy the common requirements, and to determine the


                                         18
         Appendix A. Scope, Methodology, and Management Control Program




    contractual status of each program. We examined requirements documents for
    the three radios generated during 1988 through 1994, and we examined 1991
    through 1994 production contracts for the radios.

    Tactical Intelligence Dissemination Broadcast Systems.        We performed a
    review of tactical intelligence dissemination broadcast systems to evaluate the
    radio requirements documentation.           The review included assessing
    implementation of DoD CIM guidance identified in Part I of this report and
    interviewing program officials for the Intelligence Systems Secretariat,
    Commander's Tactical Terminal, Multi-Mission Advanced Tactical Terminal,
    and Tactical Receive Equipment.

    Limitation of Scope. The Inspector General, U.S. Special Operations
    Command, was performing an audit of the Special Operations Command
    Research and Threat Evaluation System during our October 1994 visit to the
    Command. As a result, we reviewed that system for only those objectives not
    included in the Command Inspector General's review.

    Audit Period, Locations, and Standards. We performed this program audit
    from September 1994 to January 1995 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. Accordingly, we included such tests of management
    controls as were considered necessary. We did not rely on computer-processed
    data to achieve the audit objectives, and we did not use statistical sampling
    procedures. The organizations visited or contacted are listed in Appendix F.



Management Control Program

    DoD Directive 5010.38, "Internal Management Control Program," April 14,
    1987, requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of Management Controls. We reviewed the implementation
    of the management control program within the acquisition function that procures
    intelligence systems for the Command. Also, we evaluated the management
    control procedures used by officials within the Office of the Assistant Secretary
    of Defense (C3I) to identify duplicate intelligence systems and candidates for
    migration of automated information systems. We did not classify the problems
    found during the audit as control weaknesses.


                                       19
Appendix A. Scope, Methodology, and Management Control Program




Summary of Prior Audit

     Inspector General, DoD, Audit Report No. 95-032, "Department of Defense
     Intelligence Information System," November 17, 1994, states that systems were
     not identified for the DoD migration review process. The report recommends
     that the Assistant Secretary of Defense (Command, Control, Communications,
     and Intelligence) establish roles and responsibilities and establish an all-inclusive
     list of intelligence systems and base selection of migration systems on a
     functional economic analysis.             Management concurred with the
     recommendations and initiated a survey to identify all systems of interest and
     issued new CIM guidance and clarification of existing DoD CIM policy. Our
     current audit identified similar instances of underreporting of intelligence
     systems.




                                          20
Appendix B. Other Matters of Interest
   The architecture for the Command intelligence information systems is
   compatible and interoperable with the DoD Intelligence Information System
   architecture. Further, the Command architecture was developed in compliance
   with the Corporate Information Management (CIM) initiative.
   Compliance with Deputy Secretary of Defense Memorandum.                  The
   October 13, 1993, Deputy Secretary of Defense memorandum accelerating
   implementation of migration systems, tasked the intelligence community to
   identify and report all intelligence information systems to the Intelligence
   Systems Board. Of the 12 intelligence information systems audited, 9 were not
   included in the Command's CIM submission to the Intelligence Systems Board
   for evaluation as a system to be consolidated. Funding for the nine systems
   totals about $291 million. We referred the nine systems to the Chairperson of
   the Intelligence Systems Board Broadcast Working Group. The Intelligence
   Systems Board Broadcast Working Group initiated a review of the nine systems
   in November 1994 to assure they were compatible and interoperable with other
   Military Department systems.




                                    21
Appendix C. Glossary
   acquisition category. Categories established to facilitate decentralization
   decision making and execution and compliance with statutorily imposed
   requirements. The categories determine the level of review, decision authority,
   and applicable procedures.
   command, control, communication, computers, and intelligence for the
   warrior architecture. This architecture is envisioned to provide, at any time
   and place, a fused, real-time, true representation of the warfighter' s battlespace
   and the capability of the warfighter to respond and coordinate to prosecute
   effectively and successfully any mission in the battlespace. The architecture is
   based on the Corporate Information Management initiative.
   cost and operational effectiveness analysis. An analysis of the estimated costs
   and operational effectiveness of alternative materiel systems to meet a mission
   need and the associated program for acquiring each alternative.
   data element. A basic unit of descriptive information and subcategories (data
   items) of distinct units and values.
   data item.    A subcategory of descriptive information or value under a data
   element.
   data link. The means of connecting one location to another for the purpose of
   transmitting and receiving data.
   embedded correlation. An internal receiver capability allowing reception of
   multiple broadcasts and presentation of a composite representation of the
   intelligence data.
   format. The predetermined arrangement of data, such as characters, in a
   record or file.
   high-speed fleet broadcast. The high-speed fleet broadcast provides data
   essential to sustaining the operational, weapons, engineering, safety, and
   administrative needs of the users.
   Intelligence Systems Board.         In November 1993, the Deputy Assistant
   Secretary of Defense (Intelligence) and the Director of the Central Intelligence
   Community Management Staff established the Intelligence Systems Board. The
   Intelligence Systems Board consists of senior executives of all intelligence and
   intelligence-related organizations and is responsible for establishing policies and
   standards for intelligence communications and information systems; developing
                                       22
                                                        Appendix C. Glossary




top-level information architectures; and establishing organizations, authorities,
and procedures to provide central direction of intelligence community
information services and resources.
Intelligence Systems Board Broadcast Working Group. The Intelligence
Systems Board Broadcast Working Group (the working group) is a subgroup of
the Migration Panel of the Intelligence Systems Board. The working group
performs technical reviews of migration issues and provides recommendations
on migration to the Migration Panel.
Intelligence Systems Secretariat. The Intelligence Systems Secretariat is the
primary action arm of the Intelligence Systems Board and is responsible for
implementing Intelligence Systems Board policies and developing intelligence
architectures conforming to those policies.
joint program. Any Defense acquisition system, subsystem, component, or
technology program that involves formal management or funding by more than
one DoD Component during any phase of a system's life-cycle.
lead acquisition authority.       The DoD Component responsible for the
management of the acquisition.
Link-16. The Link-16 standard represents the effort to standardize the message
structure, data elements, message protocols, waveform, and radio protocols as
the primary tactical data link for the DoD.
life-cycle cost. The total cost to the Government for the acquisition and
ownership of a system over its useful life. Life-cycle cost includes the cost of
development; acquisition; support; and, where applicable, disposal.
migration system. An existing automated information system or a planned and
approved automated information system that has been officially designated to
support standard processes for a functional activity on a DoD-wide or DoD
Component-wide basis.
milestone phase. The point at which a recommendation is made and approval
sought regarding starting or continuing an acquisition program. The following
milestones could apply to an acquisition program: 0 (Concept Direction),
I (Concept Approval), II (Development Approval), III (Production Approval),
and IV (Major Upgrade Decision).

milestone decision authority. The individual with authority to approve moving
an automated information system into the next acquisition phase.


                                   23
Appendix C. Glossary




      quad-diversity. The combining and amplification of broadcast reception
      received by four antennas. Quad-diversity is a Navy requirement for surface
      ships and does not apply to Navy submarine and land requirements.

      standard data element. Data element registered in accordance with DoD data
      administration procedures.

      Tactical Data Information Exchange System. A dissemination broadcast that
      processes and distributes nationally generated tactical data to operational forces
      and commanders worldwide to support indications and warning and mission
      planning.

      Tactical Data Information Link-J. One of several tactical data information
      links that conforms to the DoD Link-16 standards.




                                          24
Appendix D. U.S. Special Operations Command
Intelligence Systems Development
   The U.S. Special Operations Command (the Command) became operational on
   April16, 1987. The Command's two basic missions are to provide combat-
   ready forces to support the theater unified commands and to plan and conduct
   special operations when specifically directed by the National Command
   Authority. Activities that may be carried out by the special operations forces to
   include direct-action special operations, foreign internal defense training,
   psychological operations, civil affairs, counterterrorism, unconventional
   warfare, strategic reconnaissance, humanitarian assistance, and theater search
   and rescue missions.
   Major Force Program 11. The Command is charged with developing and
   acquiring equipment and procuring services, materials, and supplies that are
   peculiar to special operations. The Command executes, as lead acquisition
   authority, the special operations program and budget through the funds
   appropriated in Major Force Program 11. No other unified command has
   similar budget and procurement responsibilities.
   Head-of-Agency Authority.         Congress enacted Public Law 100-180 on
   December 4, 1987, providing Head-of-Agency status to the Command. Head-
   of-Agency status confers acquisition authority to facilitate the development and
   procurement of hardware peculiar to special operations. The status also allows
   the Command to enter into agreements with other agency heads and to delegate
   procurement functions and program management responsibilities.
   The following table lists the Command's intelligence systems we reviewed. Our
   review of the acquisition strategy and other acquisition documents for the
   Command's intelligence systems funded under the Major Force Program 11
   indicated that the intelligence systems were acquired economically and
   efficiently.




                                      25
Appendix D. U.S. Special Operations Command Intelligence
Systems Development




                                                        Total 1
                                           FY 1995     Program    Milestone2
             System                       Funding      Funding     Phase
                                           ($000)       ($000)

Special Operations Command Research     $8,294         $56,345        IV
  Analysis Threat and Evaluation System

Multi-Mission Advanced Tactical                8,046    170,498       III
  Terminal3

Special Operations Forces Intelligence     12,210       47,349        III
  Vehicle
Special Operations Forces Signals               200      18,700       III
  Intelligence Manpack System3
Special Operations Forces Imagery               220      4,098        II
  Receiver and Intelligence System3

Improved Remotelj Monitored Battlefield        1,422     51,960       III
  Sensor Systems
Privateer3                                       40       2,200       II

Silent Shield3                                  164      32,971       II

Integrated Survey Program                  1,()()(f     21,28o4       II

Communications Monitoring Equipment3                      3,196       0

Language Identification and Voice                          650        II
  Identification Device3
Electronic Filmless Camera System3                        7.344       III

         Totals                           $31,596      $416,591


1Not a major system as defined by DoD Directive 5000.1, "Defense Acquisition,"
February 23, 1991.
2See Glossary in Appendix C.
3U.S. Special Operations Command system reported to the Intelligence Systems Board
by the Inspector General, DoD.
4Includes non-Major Force Program 11 funding.




                                          26
Appendix E. Summary of Potential Benefits
Resulting from Audit
Recommendation                                          Amount and/or
   Reference          Description of Benefit            Type of Benefit

      1.         Compliance and Management              Undeterminable.
                 Controls. Requires standardizing       Monetary benefits
                 message reporting formats.             should be
                                                        determinable upon
                                                        format
                                                        standardization.
     2.          Compliance and Management              Undeterminable.
                 Controls. Identifies one radio to      Monetary benefits will
                 meet requirements.                     result from lower unit
                                                        costs, economies of
                                                        scale, and reduced
                                                        life-cycle support
                                                        costs by developing
                                                        one radio instead of
                                                        three.
      3.         Program results. Establishes a joint   Nonmonetary.
                 intelligence broadcast dissemination
                 requirement.

      4.         Program results. Establishes a joint   Nonmonetary.
                 program office over broadcast
                 receiver systems.




                                     27
Appendix F. Organizations Visited or Contacted


Office of the Secretary of Defense
Assistant Secretary of Defense, (Command, Control, Communications and
  Intelligence), Washington, DC
  Intelligence Program Support Group, Washington, DC
  Intelligence Communications Architecture, McLean, VA
Assistant Secretary of Defense (Special Operations and Low-Intensity Conflict),
  Washington, DC


Joint Staff
Director for Operations (J-3), Washington, DC


Department of the Army
Deputy Chief of Staff for Intelligence, Washington, DC
Communications-Electronics Command, Fort Monmouth, NJ
  Electronic Warfare/Reconnaissance, Surveillance and Target Acquisition, Program
     Executive Office for Intelligence and Electronic Warfare, Fort Monmouth, NJ


Department of the Navy
Space and Naval Warfare Systems Command, Crystal City, VA


Department of the Air Force
Assistant Chief of Staff Intelligence, Washington, DC
Air Force Materiel Command, Wright-Patterson Air Force Base, OH
  Electronic Systems Center, Hanscom Air Force Base, MA


Unified Command
U.S. Special Operations Command, MacDill Air Force Base, FL
  Joint Special Operations Command, Fort Bragg, NC
  Army Special Operations Command, Fort Bragg, NC

                                          28
                                Appendix F. Organizations Visited or Contacted




Non-Defense Federal Organizations
Intelligence Community Management Staff, Langley, VA
   Intelligence Systems Board, Langley, VA
MITRE Corp., Bedford, MA




                                      29
Appendix G. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications and Intelligence)
  Director, Intelligence Program Support Group
  Director, Intelligence Communications Architecture
Assistant Secretary of Defense (Special Operations and Low Intensity Conflict)
Assistant to the Secretary of Defense (Public Affairs)
Director, Joint Staff


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Unified Command
Commander In Chief, U.S. Special Operations Command
  Joint Special Operations Command
  Army Special Operations Command




                                          30
                                                   Appendix G. Report Distribution




Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency


Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
  General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Select Committee on Intelligence
House Committee on Appropriations
House Subcommittee on National Security, Committee on Appropriations
House Committee on Government Reform and Oversight
House Subcommittee on National Security, International Affairs, and Criminal Justice,
  Committee on Government Reform and Oversight
House Committee on National Security
House Permanent Select Committee on Intelligence




                                          31
   Audit Team Members


This report was produced by the Readiness and Operational Support Directorate,
Office of the Assistant Inspector General for Auditing, DoD.

   Thomas F. Gimble
   Harrell D. Spoons
   Wayne B. Winkler
   John R. Van Hom
   Herbert L. Braun
   Andrew S. Perry
   Gerard M. Pascale
   Sharon D. Nguyen
   Kristi N. Walker
   Nancy C. Cipolla
